Audit of USAID’s Implementation of the Office of
Management and Budget’s Program Assessment
and Rating Tool
Audit Report Number 9-000-05-004-P
March 25, 2005




                   Washington, D.C.
Office of Inspector General




               March 25, 2005


               MEMORANDUM
               FOR:           PPC/SPP/SRC, Joseph F. Lombardo

               FROM:          IG/A/PA Acting Director, Michael W. Clinebell /s/

               SUBJECT:       Audit of USAID’s Implementation of the Office of Management and
                              Budget’s Program Assessment and Rating Tool
                              (Report No. 9-000-05-004-P)

               This memorandum transmits our final report on the subject audit. In finalizing our report,
               we considered your comments on our draft report and have included your response in its
               entirety in Appendix II.

               This report includes three procedural recommendations. In your written comments, you
               concurred with these recommendations and identified actions to address our concerns.
               Consequently, management decisions have been reached on all three recommendations.
               Please provide documentation supporting final action on these recommendations to
               USAID’s Office of Management Planning and Innovation.

               I want to express my sincere appreciation for the cooperation and courtesy extended to
               my staff during the audit.
(This page intentionally left blank.)
Table of   Summary of Results………………………………………………….………...5
Contents
           Background………………………………………………………………….…5

           Audit Objectives………………………………………………….……………7

           Audit Findings…………………………………………………………………8

                Is USAID implementing the Program Assessment and Rating Tool
                in accordance with Office of Management and Budget guidance?.......8

                          Staff Lacked Adequate Training……………………………....9

                          USAID Should Develop Guidance…..………………….……10

                Are USAID’s assessments, as reflected in the Program Assessment
                and Rating Tool questionnaire, supported with sufficient and
                adequate evidence?...............................................................................11

                          Documentation Supporting USAID’s PART Was Not
                          Readily Available……………….……………………………11

           Evaluation of Management Comments………..……………………………..12

           Appendix I – Scope and Methodology………….……………………………13

           Appendix II – Management Comments……….….…………………………..15




                                                                                                                      3
(This page intentionally left blank.)




                                        4
Summary of   The Program Assessment and Rating Tool (PART)—a government-wide
Results      initiative included in the President’s Management Agenda of 2002—was
             developed by the Office of Management and Budget (OMB) in an effort to
             promote budget and performance integration. The PART is intended to serve as a
             tool for assessing individual agency performance in an objective manner, building
             upon the strategic framework established under the Government Performance and
             Results Act of 1993. The objectives of this audit were to determine if USAID
             was implementing this tool in accordance with OMB’s guidance and whether
             USAID’s assessments were supported with sufficient and adequate evidence.
             (See pages 7 and 8.)

             As a result of the audit, we found that USAID/Washington prepared the PART in
             accordance with OMB guidance and provided sufficient and adequate evidence to
             OMB. However, the staff involved in implementing PART lacked adequate
             training; USAID-specific guidance for the implementation of PART was not
             available; and USAID did not maintain readily available documentation to support
             its answers to the PART questionnaire. (See pages 9, 10, and 11.)

             This report includes three recommendations to strengthen USAID’s preparation of
             the PART questionnaire through training, the promulgation of agency-specific
             guidance, and the maintenance of documentation supporting its answers to the
             PART questionnaire. (See pages 10, 11, and 12.)

             Management comments are included in their entirety in Appendix II. In their
             comments, the Bureau for Policy and Program Coordination concurred with our
             recommendations and described actions they planned to take to address our
             concerns. When fully implemented, these actions should improve the PART
             preparation process. (See page 12.)


Background   In an effort to promote budget and performance integration, the Office of
             Management and Budget (OMB) developed the Program Assessment and Rating
             Tool (PART), a government-wide initiative included in the President’s
             Management Agenda of 2002. The PART is intended to serve as a tool for
             assessing agency performance in an objective manner, building upon the strategic
             framework established under the Government Performance and Results Act of
             1993.

             Assessments are performed through completing a PART questionnaire which
             contains a series of questions designed to provide a consistent approach to rating
             programs across the Federal government and to focus on performance measures
             and performance measurement tools within each agency. As the lead agency
             coordinating its implementation of the PART, OMB provides guidance on
             completing the PART in an effort to achieve consistent results. In addition to



                                                                                               5
providing training and written guidance, OMB examiners collaborate with
agencies to resolve specific problems and ensure that OMB standards are applied
consistently.

OMB launched the PART for the preparation of the FY 2004 budget submission
and required that agencies apply the tool to 20 percent of their programs based on
each agency’s budget request in dollars. Since the FY 2004 budget submission,
agencies have been expected to cover an additional 20 percent of their programs
in each subsequent budget year in order to achieve 100 percent coverage by
budget FY 20081. Therefore, agencies will be expected to have 60 percent of
their programs evaluated by budget FY 2006. Starting with the FY 2005 budget
submission, USAID elected, in consultation with OMB, to present its PART
submission on a geographic basis—consistent with the joint USAID-State
Department strategic plan—rather than by sector (e.g., economic growth, health)
The following chart shows the history of the programs which have been PARTed
in the past and their respective scores—which may include Effective, Moderately
Effective, Adequate, Ineffective, and Results Not Demonstrated.




1
 Budget FY 2008 refers to the budget submission to OMB for the fiscal year 2008. Agencies
submit their budgets to OMB two years in advance, e.g., the budget for FY 2006 was submitted to
OMB in the fall of 2004.




                                                                                             6
                       History of USAID’s PART Assessment Program (Unaudited) 2
                         The table relates the history of the PART assessments within USAID
                                          Program Title                              Agency            Program Results
                         since inception. For budget FY 2004, 3 programs were         Score
                                                                                              PARTed:
                         PopulationBUDGETwhich received
                                                  FY 2004 a score of 81.5 and Moderately Effective,
             Population Global Climate Change which received a score of 58.2           81.5and Adequate,
                                                                                                  Moderately Effective
                         andChange
             Global Climate   PL 480 Title II Food Aid which received a score58.2        of 60.4Adequate
                                                                                                   and
             PL 480 TitleAdequate.      The 3 programs which were PARTed for60.4
                          II Food Aid Program                                            budget Adequate
                                                                                                  FY 2005
                         were: Latin      America
                                       BUDGET     FYand
                                                     2005Caribbean – Child Survival and Health (LAC-
                         CSH) which received a score of 63 and Results Not Demonstrated, LAC
                         – Development
             Latin America   and CaribbeanAssistance
                                              (LAC) - Child(LAC-DA)
                                                            Survival andwhich
                                                                         Healthreceived 63a score    of 65Not
                                                                                                  Results  andDemonstrated
                         Results Not Demonstrated, and Agency Transition Initiatives which
             Latin America   and Caribbean
                         received    a score (LAC)
                                              of 80 -and
                                                       Development
                                                          ModeratelyAssistance
                                                                        Effective. The655 programsResultswhich
                                                                                                          Not Demonstrated
             Agency Transition
                         were PARTed for budget FY 2006 were: LAC-CSH which received a Effective
                                 Initiatives Program                                    80        Moderately
                         score of 75 and Moderately Effective, LAC-DA which received a score
                                       BUDGET FY 2006
                         of 75 and Moderately Effective, Operating Expenses/Capital
             USAID Operating Expense / Capital Investment Fund                          70
                                                                                                   Investment
                                                                                                  Moderately Effective
             *LAC - ChildFund   which
                           Survival  andreceived
                                           Health a score of 70 and Moderately Effective,
                                                                                        75          Andean Effective
                                                                                                  Moderately
                         Counter Drug
             *LAC - Development             Initiative (ACI) which received a score75of 52 and
                                    Assistance                                                    Moderately Effective
                         Adequate, and International Narcotics and Law Enforcement Assistance
             **Andean Counter Drug Initiative                                     STATE - 52 Adequate
                         (INCLE) which received a score of 52 and Adequate.
             **International Narcotics and Law Enforcement Assistance
                                                                                           The last 2
                                                                                  STATE - 52 Adequate
                         programs, ACI and INCLE, were PARTed by the State Department with
                         some input from USAID. The 2 programs which were rePARTed for
                         budgetwere
             *These programs      FY re-assessed
                                        2006, LAC-DA       and LAC-CSH,
                                                     for budget             werethey
                                                                FY 2006 because    being     reassessed
                                                                                        received   a score of Results
                         becauseforthey
             Not Demonstrated              received
                                      budget         a score of Results Not Demonstrated for the
                                              FY 2005.
             **These twoprevious
                          programsbudget
                                       were PARTed    by the State
                                              year. USAID      doesDepartment
                                                                     expect to with
                                                                               PART inputthefrom
                                                                                               DAUSAID.
                                                                                                   and CSH
                         programs in the African Bureau for budget FY 2007 and the Iraq
             The use programs
                          of the PART for budget    FY 2008.
                                                 during     the program performance evaluation process is
             intended to generate defensible and consistent program ratings, which can then be
             linked to the budget process. The intention is to help identify a program’s
             strengths and weaknesses to inform funding and management decisions aimed at
             making a program more effective. The PART incorporates all factors that affect
             and reflect program performance. And because the PART includes a consistent
             series of analytical questions, it allows programs to show improvement over time
             and allows comparisons between similar programs. In addition, OMB expects
             that, after all programs have been evaluated using PART, a bank of “best
             practices” will be available for agencies to use in developing new projects and
             evaluating old ones.


Audit        This audit was conducted as part of the OIG annual audit plan to answer the
Objectives   following questions:

             •        Is USAID implementing the Program Assessment and Rating Tool in
                      accordance with Office of Management and Budget guidance?

             2
              Scores range from 0 to 100, however, regardless of overall score, a rating of Results Not
             Demonstrated is given when programs do not have agreed-upon performance measures or lack
             baselines and performance data.




                                                                                                                        7
                 •      Are USAID’s assessments, as reflected in the Program Assessment and
                        Rating Tool questionnaire, supported with sufficient and adequate
                        evidence?

                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings   Is USAID implementing the Program Assessment and Rating Tool in
                 accordance with Office of Management and Budget guidance?

                 USAID implemented the Program Assessment and Rating Tool (PART) in
                 accordance with Office of Management and Budget (OMB) guidance. However,
                 the process could have been more efficient and the PART more fully implemented
                 had USAID personnel attended OMB training and had USAID issued agency-
                 specific, written guidance concerning the PART and its preparation.

                 Each year, OMB provides guidance for the annual PART submission in the form
                 of documents highlighting Frequently Asked Questions, specific guidance for
                 each question in the PART questionnaire, and free, half-day training sessions for
                 agency staff involved in preparing the PART questionnaire. In addition, an OMB
                 examiner is assigned to each program and is an integral participant in the
                 preparation process. Examiners are involved in such issues as:

                     1. ensuring that every answer on the questionnaire is addressed,
                     2. reviewing the evidence provided to ensure the questions are answered
                        properly, and
                     3. helping to determine the performance measures.

                 This guidance is provided to ensure that this complex process is fully understood
                 and implemented as intended.

                 The President’s Management Agenda of 2002 stressed the need for agencies to
                 place greater focus on performance and to identify high-quality outcome
                 measures, accurately monitor the performance of programs, and begin integrating
                 the PART presentation with the associated cost. The PART process is intended to
                 be much more than a compliance exercise. Those involved in preparing the
                 PART have to meet high standards, which can be especially difficult if they are
                 unfamiliar with the objective of the PART process, do not allow the necessary
                 time to complete it, and do not have adequate guidelines to follow to ensure that
                 USAID receives the full benefit of the PART.




                                                                                                8
Staff Lacked Adequate Training

Two of the eight USAID staff responsible for preparing the PART questionnaires
for FY 2006 attended the free, half-day training offered by OMB. The Standards
for Internal Control in the Federal Government notes that training is an important
element of effective management. Training was not attended primarily because
USAID did not have an individual coordinating the PART process. As a result,
the process was not as efficient as it could have been.

Internal control is a major part of managing an organization. It comprises the
plans, methods and procedures used to meet milestones, goals and objectives and,
in doing so, supports performance-based management. The Standards for
Internal Control in the Federal Government3 notes that effective management of
an organization’s workforce is essential to achieving results. Those standards also
stress that an important element of such management is training employees to
meet changing organizational needs.

However, while preparing the PART is something that is fairly new to USAID
and while OMB did offer half-day PART training sessions, only two of the eight
USAID staff responsible for preparing the PART questionnaires for FY 20064
attended that training. This occurred primarily because in the months leading up
to the training, USAID did not have an individual coordinating the PART process,
someone who could ensure that those who were to be involved in PART
preparation were informed of and attended the OMB training. Ultimately, in
March 2004, USAID did assign someone to serve as its PART coordinator.
However, March is also the beginning of the actual PART preparation phase and
is when OMB issues new guidance and holds several free, half-day training
sessions. When the PART coordinator did start, he alerted those involved in the
process about the OMB training, but most could not attend due to the short notice.

As a result, most of the individuals involved in preparing USAID’s PART entered
the process without the benefit of the OMB training. Those involved in preparing
the FY 2006 PART submission had very tight deadlines and were starting with no
prior knowledge of the PART process. Preparing the PART for the first time
proved to be a daunting task for most of those involved at the program level. One
preparer stated that it took them at least one month of man-hours to prepare the
PART questionnaire in the allotted two weeks.

Moreover, a similar lack of training was reflected in USAID’s FY 2005 PART
submission. The individuals preparing that submission also did not attend OMB’s
PART training. Two of the programs reviewed in the FY 2005 PART submission

3
The Standards for Internal Control in the Federal Government were issued by the U.S. General
Accountability Office in November 1999.
4
The PART submission for FY 2006 was prepared in the spring of 2004.



                                                                                               9
received ratings of Results Not Demonstrated because the answers on the
questionnaire were not adequate, due partially, to a lack of knowledge about the
PART process. These two programs were rePARTed for FY 2006, and the
deficiencies were corrected. However, had those involved attended the OMB
training and fully understood the intricacies and full intent of the PART, we
believe that the process may have been more efficient and those involved may
have better appreciated the full benefits of PART. Accordingly, we are making
the following recommendation to strengthen USAID’s preparation of the PART:

       Recommendation No. 1: We recommend that the Office of
       Policy and Program Coordination, in coordination with the
       affected Bureaus, require that USAID staff involved in the
       preparation of the PART attend the training sessions offered
       by OMB prior to the preparation of the PART questionnaire.

USAID Should Develop Guidance

USAID had not promulgated internal guidance addressing the collection of
necessary data and the preparation of the PART. The Standards for Internal
Control in the Federal Government notes that internal controls should be clearly
documented. The absence of agency-specific guidance occurred primarily
because USAID did not have a specific individual responsible for coordinating
the PART process. As a result, USAID’s PART submissions were not developed
in the most efficient and effective manner.

As stated previously, internal control is a major part of managing an organization.
Such controls are important because they assist management in achieving its goals
and objectives. The Standards for Internal Control in the Federal Government
notes that internal controls should be clearly documented. This documentation
can take a variety of forms, including—but not limited to—management
directives, administrative policies, or similar guidance. Such guidance is
especially valuable in cases where agency staff are performing new functions,
either because a new requirement has been added or because staff are new to the
functional area. In these circumstances, documented guidance can quickly inform
staff what must be done, why it must be done and how it must be done.

At the time of our audit, USAID had not promulgated internal guidance
addressing the collection of necessary data and the preparation of the PART. As a
result, USAID’s PART submissions were not developed in the most efficient and
effective manner. For example, one USAID PART submission participant stated
that he learned through the process that the information the missions typically
gather and record is not necessarily the same as that required for the PART.
Another example, mentioned earlier, was one PART preparer who stated that it
took them at least one month of man-hours to prepare the PART questionnaire in
the allotted two weeks.



                                                                                10
We believe that this absence of agency-specific guidance occurred primarily
because USAID did not have a specific individual responsible for coordinating
the PART process. USAID has now named a PART coordinator, who has begun
establishing management controls for the PART. For example, this coordinator
indicated that he is developing an “Advisory Review Panel” for the FY 2007
PART submission to help streamline the process and ensure USAID receives the
full benefit of the process. While this is a positive step, we believe that the
promulgation of formal written USAID guidance concerning PART and its
preparation would further enhance the efficiency and effectiveness of USAID’s
PART process. Accordingly, we are making the following recommendation:

       Recommendation No. 2: We recommend that the Office of
       Policy and Program Coordination develop and distribute
       formal, written, agency-specific guidance concerning the
       PART and the preparation of USAID’s PART submission.

Are USAID’s assessments, as reflected in the Program Assessment and
Rating Tool questionnaire, supported with sufficient and adequate evidence?

Although USAID’s assessments, as reflected in the PART questionnaires, were
supported with sufficient and adequate evidence, the documentation was not
readily available within USAID.

During the PART process, USAID was required to submit supporting
documentation to OMB. OMB was satisfied with the evidence that accompanied
USAID’s PART questionnaires for FY 2006 and did not make significant
adjustments to the PART questionnaire based on that documentation.

Documentation Supporting USAID’s
PART Was Not Readily Available

USAID/Washington did not maintain readily available documentation to support
the answers on two of the PART questionnaires. The Standards for Internal
Control in the Federal Government states that all transactions and other
significant events need to be clearly documented and that such documentation
needs to be readily available for examination. USAID’s copies of the
documentation had been sent to OMB and copies had not been retained due to a
lack of time. Maintaining the documentation serves to support the credibility of
the PART information reported outside of USAID.

The Standards for Internal Control in the Federal Government states that all
transactions and other significant events need to be clearly documented and that
such documentation needs to be readily available for examination.




                                                                             11
                We reviewed three PART questionnaires submitted to OMB for FY 2006:

                   •   Operating Expenses/Capital Investment Fund (OE/CIF)
                   •   Latin America and Caribbean Bureau’s Development Assistance Program
                       (LAC-DA)
                   •   Latin America and Caribbean Bureau’s Child Survival and Health
                       Program (LAC-CSH)

                We determined that USAID/Washington did not maintain readily available
                documentation to support the answers on the questionnaire for the LAC-DA and
                LAC-CSH programs that were PARTed for FY 2006. This documentation had
                been sent to OMB to support USAID’s PART submission, but copies had not
                been retained due to a lack of time.

                Moreover, USAID did not maintain readily available documentation to support
                the programs which were PARTed for FY 2004 and 2005. The supporting
                documentation for the FY 2004 and 2005 PART questionnaires was unavailable
                because prior to March 2004 there was no PART coordinator to maintain the
                documentation.

                Maintaining the documentation that is the basis of USAID’s PART submission is
                important because such documentation supports the credibility of the PART
                information reported outside of USAID. Ultimately, we were able to determine
                that USAID’s PART submission for FY 2006 was supported with sufficient and
                adequate evidence by obtaining the supporting documentation, but to do so, we
                had to obtain the documentation from OMB. Accordingly, we are making the
                following recommendation:

                       Recommendation No. 3: We recommend that the Office of
                       Policy and Program Coordination maintain documentation
                       supporting its PART submissions.



Evaluation of   In their response to our draft report, the Bureau for Policy and Program
Management      Coordination (PPC) concurred with our recommendations and described actions
                they planned to take to address our concerns. Specifically, the Bureau will (1)
Comments
                ensure that at least one representative from each affected Bureau has attended the
                OMB training, (2) develop and distribute agency-specific guidance, and (3)
                retrieve copies of the FY2006 PART supporting documentation and maintain such
                documentation for all subsequent PART cycles. PPC also proposed changes in
                the wording of one of our recommendations, which we considered and made, as
                appropriate. When fully implemented, the Bureau’s actions should improve the
                PART preparation process.




                                                                                               12
                                                                                   Appendix I

Scope and     Scope
Methodology
              The Office of Inspector General’s Performance Audit Division conducted this
              audit in accordance with generally accepted government auditing standards. The
              purpose of this audit was to determine if USAID was implementing the Program
              Assessment and Rating Tool (PART) in accordance with the Office of
              Management and Budget (OMB) guidance and whether USAID’s assessments
              were supported with adequate and sufficient evidence.

              The scope of the audit was limited to those PART submissions which were
              completed solely by USAID for the most current budget year submission, budget
              FY 2006. These included:

                 •    Operating Expenses and Capital Investment Fund (OE/CIF);
                 •    Latin America and Caribbean Bureau’s Development Assistance Program
                      (LAC-DA); and
                 •    Latin America and Caribbean Bureau’s Child Survival and Health
                      Program (LAC-CSH).

              In planning and performing the audit, we assessed the effectiveness of USAID
              internal controls related to the process of assessing performance measurements.
              The USAID internal controls identified included:

                 •    Designation of a PART coordinator to manage the PART process as well
                      as to prepare the questionnaire based partially on evidence received from
                      the Bureaus;

                 •    Collaboration with an OMB liaison to facilitate the PART process,
                      including reviewing the evidence for adequacy; and

                 •    Collaboration with the Program Evaluation Team at OMB to ensure
                      consistency in the PART questionnaires.

              The audit was conducted at USAID’s Headquarters in Washington, D.C. from
              September 15, 2004 through February 10, 2005.

              Methodology

              In order to answer our audit objectives, we identified and reviewed OMB's PART
              reporting guidance available through the OMB website, including the Frequently
              Asked Questions and the budget FY 2006 PART instructions.




                                                                                            13
In planning and performing the audit, we obtained an understanding of rules,
regulations, USAID procedures, and internal controls related to the preparation of
the PART.

We conducted interviews with the USAID PART coordinator, officials in the
Office of Policy and Program Coordination, the Latin America and Caribbean
Bureau, the Office of Financial Management, and two OMB officials, both of
whom were the examiners for one of USAID’s PARTed programs for FY 2006.
Our interviews with the officials and the examiners were conducted to determine
their respective role in the PART process, their knowledge of the process, and
what guidance they followed in the PART preparation.

For each of the programs that were PARTed, we requested the PART
questionnaires as well as the supporting documentation submitted to OMB with
the questionnaire. We reviewed the documents to determine whether USAID
prepared the questionnaires in accordance with OMB guidance and whether the
supporting documentation was sufficient and adequate.

A materiality threshold was not established for this audit as the nature of the audit
did not lend itself to the establishment of such a threshold.




                                                                                  14
                                                                                                Appendix II


Management    MEMORANDUM                                            March 21, 2005
Comments      TO:              Acting IG/A/PA, Roosevelt Holt

              FROM:            Director, PPC/SPP, Joseph Lombardo /s/
                               DAA/PPC, Barbara Turner /s/

             SUBJECT:          Bureau for Policy and Program Coordination Comments on Draft Report on
                               Audit of USAID’s Implementation of the Office of Management and Budget’s
                               Program Assessment and Rating Tool – PART (Report No. 9-000-05-00X-P)


             Thank you for your draft memorandum of February 2005 which transmitted your draft audit report
             of USAID’s implementation of OMB’s PART. We are grateful for the efforts of your staff in
             conducting this performance audit.

             USAID PPC concurs with the spirit of all the findings in this audit report and proposes a few
             clarifications and modifications.

             Following are our management decisions and corrective actions regarding the proposed audit
             recommendations.

             Recommendation No. 1: We recommend that the Bureau of Policy and Program
             Coordination, in coordination with the affected Bureaus, require that USAID staff involved
             in the preparation of the PART attend the training sessions offered by OMB prior to the
             preparation of the PART questionnaire.

             We agree with this recommendation, and note that for the FY 2007 PART cycle which is currently
             underway, PPC/SPP has ensured that at least one representative from each affected Bureau has
             attended the OMB PART Training. In fact, a total of (20) USAID employees have attended the
             PART training, including nine from the Bureau for Africa alone. A paragraph has been inserted in
             the USAID agency-specific instructions for complying with OMB’s PART Guidance that requires
             attendance at the training by at least one bureau representative, though a much broader
             participation is recommended.

             Recommendation No. 2: We recommend that the Bureau of Policy and Program
             Coordination develop and distribute formal written guidance concerning the PART and the
             preparation of USAID’s PART submission.

             We accept the spirit of this recommendation, but would like to provide clarification and a
             modification of the Recommendation language to more precisely define the problem, which we
             believe will lead to a more effective corrective action.

             Proposed Recommendation No. 2: We recommend that the Bureau for Policy and Program
             Coordination (PPC) develop and distribute agency-specific guidance for complying with OMB’s
             annual PART Guidance. This will serve to ensure that affected USAID bureaus will have timely,
             relevant and appropriate agency-specific instructions for complying with OMB Guidance for
             completing the PART, but reduces or eliminates the potential for incorrect interpretations of the
             guidance by PPC, and ensures that PPC maintains an “honest broker” role and does not supercede
             or supplant OMB’s guidance.




                                                                                                             15
We agree with this recommendation. The current OMB PART Guidance is over 70 pages in
length, is very explicit in its definitions, deadlines, and requirements, and is available
electronically and in hard-copy to all agency employees; OMB offers free, 2 ½ hour training
sessions for all federal employees at the beginning of every PART cycle; the PART Template (an
Excel workbook) is issued with a full set of instructions, accompanied by “pop-up” help boxes in
every field of the template; and, there are numerous other tools available on OMB’s website, and
through the PPC PART Coordinator, to assist affected bureaus in complying with OMB’s
Guidance. Therefore, it is not necessary to develop separate guidance, but it is necessary to
develop and implement agency-specific instructions for complying with that guidance. For the FY
2007 cycle, PPC/SPP developed and distributed such instructions to all affected bureaus on March
10, 2005; these instructions are included as an attachment to this memo.

Recommendation No. 3: We recommend that the Bureau of Policy and Program
Coordination maintain documentation supporting its PART submissions.

We agree with this recommendation, though as was pointed out during the audit exit conference,
the PPC PART Coordinator did maintain electronic copies of all evidentiary documents
supporting the LAC Bureau PARTs, and the intent was to retrieve the LAC Evidence Binders
from OMB at the conclusion of the PART appeal process and make copies for permanent retention
by the agency. However, we agree in substance that a record copy of all PART evidence binders
should be maintained by PPC for all completed PARTs; this practice has been instituted for the
FY 2006 PARTs, and will be continued for FY 2007 and all subsequent PART cycles.




                                                                                             16
